September 30, 2008

STEVEN J. FORTE
VICE PRESIDENT, NEW YORK METRO AREA OPERATIONS

SUBJECT: Audit Report – Vehicle Maintenance Facilities –Scheduled
         Maintenance Service in the New York Metro Area
         (Report Number DR-AR-08-011)

This report presents the results of our self-initiated audit, Vehicle Maintenance Facilities
(VMF) – Scheduled Maintenance Service in the New York Metro Area (Project Number
08XG006DR000). The overall objectives were to assess whether the New York Metro
Area accomplished all required scheduled maintenance and whether they integrated
both VMFs and local commercial resources for optimum efficiency. Click here to go to
Appendix A for additional information about this audit.

Conclusion

The New York Metro Area completed nearly all required scheduled preventive
maintenance (SPM1) during fiscal year (FY) 2007. However, management could further
optimize VMF efficiency through more effective use of VMF and local commercial
resources. Better optimizing its resources could save the New York Metro Area an
estimated $25 million over 10 years.

Scheduled Maintenance Performance

New York Metro Area VMF units and local commercial vendors (LCVs) completed an
average of 95 percent of all SPMs. Four of the VMF units completed all of their SPMs,
and five VMF units completed between 92 and 97 percent of the required SPMs.
Additionally, one VMF unit completed only 74 percent of the required SPMs. VMF
managers did not monitor and track SPMs not completed by local vendors at Vehicle
Post Offices (VPOs).

Without completing all required scheduled maintenance and repairs, some of the Postal
Service vehicles are vulnerable to breakdowns, which could adversely impact timely
mail delivery and potentially impact the well-being of employees and the public. Since
the Postal Service does not plan to begin replacing its current fleet of long life vehicles
(vehicles that are more than 20 years old) until 2018, we believe it is critical that these

1
 An SPM usually includes a preventive maintenance inspection and any repairs needed to maintain the vehicle or
meet safety and reliability standards.
Vehicle Maintenance Facilities – Scheduled                                                      DR-AR-08-011
 Maintenance Service in the New York Metro Area


vehicles receive SPMs in a timely manner. Click here to go to Appendix B for additional
information about this issue.

We recommend the Vice President, New York Metro Area Operations, direct district
managers to:

       1. Require vehicle maintenance facility officials to immediately conduct all
          maintenance in arrears and properly record vehicle status if maintenance was
          not conducted.

       2. Monitor and track key maintenance activities to ensure timely completion of all
          required scheduled maintenance and repairs.

Optimum Use of Resources

The New York Metro Area did not always optimize its resources to ensure that
maintenance and repair funds were expended in the most efficient and cost-effective
manner. Specifically, maintenance officials often used LCVs for vehicle maintenance
and repairs when using VMF resources would have been more efficient and
economical. Likewise, VMF resources were often used when LCVs would have been
more efficient and economical. Additionally, VMF officials used maintenance
employees to shuttle vehicles between facilities for maintenance and repairs when more
economical means existed.

The following factors contributed to these conditions. Although VMF units had a vehicle
maintenance plan, it did not fully consider:

       •   The optimal combination of VMF resources and LCVs for performing scheduled
           maintenance and repairs.

       •   The cost-effectiveness of using LCVs instead of VMF resources to shuttle
           vehicles between facilities for maintenance and repairs.

In addition, area officials’ oversight was not effective in managing vehicle maintenance
programs because they did not have sufficient performance data. We also found the
vehicle maintenance organizational structure was not conducive to effective program
management.2 Click here to go to Appendix C for additional information on optimum
use of resources.

As a result, the New York Metro Area expended more resources than necessary to
complete vehicle maintenance and repairs. By optimizing its resources, the New York
Metro Area could reduce operating costs by about $2.5 million annually, or
approximately $25 million projected over 10 years. Click here to go to Appendix D for
our detailed analysis of the monetary impact.

2
    This issue requires action by Postal Service Headquarters and will be addressed in the national capping report.


                                                            2
Vehicle Maintenance Facilities – Scheduled                             DR-AR-08-011
 Maintenance Service in the New York Metro Area




We recommend the Vice President, New York Metro Area Operations, direct district
managers to:

3. Work with vehicle maintenance facility officials to:

   •   Maintain the most efficient combination of vehicle maintenance facility and
       commercial resources based on geographical location and costs.

   •   Make optimal use of the Postal Service’s national vehicle shuttle agreement or
       other local commercial shuttle services, when cost-effective, for transporting
       vehicles to and from maintenance facilities.

Management’s Comments

Management agreed with our findings and recommendations. Management will require
all district managers to immediately develop a plan to complete all scheduled
maintenances in arrears and maintain a current preventative maintenance status.
Management will require district officials not meeting minimum goal performance levels
for any of the key indicators to submit an action plan to the area office outlining the
steps they will take to be compliant. Further, management will require vehicle
maintenance managers to develop action plans to optimize VMF and LCV resourcesand
perform service on vehicles within 50 miles of their respective VMF. Management
stated that LCVs will perform SPM on vehicles located outside the 50-mile radius when
the cost analysis shows a savings. In addition, management will require VMF
managers to develop action plans that address shuttles for vehicles located between
the Vehicle Perimeter Offices and the VMF when the one-way distance is over 20
minutes. Finally, management stated they could not commit to the actual dollar
amounts specified in the audit report. However, in subsequent discussions,
management agreed in principle with the potential monetary impact and capturing
savings through improved efficiencies as they implement the recommendations. We
have included management’s comments, in their entirety, in Appendix G.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments responsive to the recommendations and management’s corrective actions
should resolve the issues identified in the report.

The OIG considers recommendation 3 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
follow-up tracking system until the OIG provides written confirmation that the
recommendation can be closed. We will report $25,287,093 of funds put to better use
in our Semiannual Report to Congress.



                                                  3
Vehicle Maintenance Facilities – Scheduled                          DR-AR-08-011
 Maintenance Service in the New York Metro Area



We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Rita F. Oliver, Director,
Delivery, or me at (703) 248-2100.

     E-Signed by Robert Batta
 VERIFY authenticity with ApproveIt




Robert J. Batta
Deputy Assistant Inspector General
  for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Jordan M. Small
    Wayne W. Corey
    Katherine S. Banks




                                                  4
Vehicle Maintenance Facilities – Scheduled                              DR-AR-08-011
 Maintenance Service in the New York Metro Area


                             APPENDIX A: ADDITIONAL INFORMATION

BACKGROUND

The Postal Service invested more than $3 billion in vehicle assets for the purpose of
transporting and delivering the mail. The vehicle inventory consists of 219,522 delivery,
transport, and administrative vehicles, of which delivery and collection vehicles (see the
examples in Figure 1) account for 195,211 or about 89 percent of the total fleet. The
Postal Service acquired the majority of these vehicles between 1987 and 1994 and
planned to maintain them for 24 years. About 7,700 of these vehicles purchased in
1987 are approaching the end of their useful life. However, the Postal Service recently
stated that capital constraints now dictate that many of these vehicles must stay in
service until 2018 - 7 years more than the planned lifespan.

                                          Figure 1.
                    Delivery and Collection Vehicles in VMFs for SPM




                    Source: Postal Service

Management established 190 main and 131 auxiliary VMFs to maintain these assets in
a technically reliable, safe, clean, and neat condition for efficient mail transportation.
Vehicle maintenance includes selecting and training maintenance technicians; providing
garages, tools, and equipment; performing repairs; and monitoring and maintaining
preventive maintenance standards. The geographic location of VMFs and auxiliary
VMFs varies in each area as needed to support vehicle maintenance and reduce
transportation costs. Auxiliary VMFs were established for situations where vehicle
maintenance requirements exceed VMF resources or when shuttle time or geographical
distances warrant the use of an auxiliary VMF.

Area officials are responsible for validating staffing requirements for vehicle-related
positions and ensuring an adequate scheduled maintenance program. Vehicle
maintenance managers have overall responsibility for oversight of all maintenance and
repair services performed at VMF units, as well as any work contracted to commercial
vendors. Although the VMF manager has overall responsibility for vehicle maintenance,
vehicles are usually assigned to a VPO. VPOs can be post offices, branches, stations,
associated offices, or other delivery and support facilities. Officials at VPOs can also
contract with LCVs for maintenance and repair services, but they are required to




                                                  5
Vehicle Maintenance Facilities – Scheduled                                       DR-AR-08-011
 Maintenance Service in the New York Metro Area


document the repairs and obtain the VMF manager’s approval for repairs and services
costing more than $250.

The Postal Service developed Handbook PO-701, Fleet Management, to assist
operating personnel in maintaining the vehicle fleet in the most economical manner
possible. The handbook requires a maintenance plan that provides for regular
examination and service of Postal Service-owned vehicles. VMF managers must
prepare a vehicle maintenance plan designating where and when each vehicle will
receive scheduled maintenance. The handbook also emphasizes preventive or
scheduled maintenance over reactive or unscheduled maintenance. (See Appendix F,
“Scheduled Maintenance Process,” for a flowchart.)

The Postal Service also established a Model Vehicle Maintenance Facility Performance
Review program. The review program is an integral part of VMF operations, and is a
key tool for determining the efficiency of a unit at a given time and for identifying areas
that need corrective action. Districts must ensure that self-reviews are performed in all
VMF’s on a quarterly basis. A VMF must achieve a score of 85 or more to be certified.
The area must certify or recertify each unit at least every 3 years.

The Postal Service uses the Vehicle Management Accounting System (VMAS) to code
and track costs. VMAS is a computer-based support system designed to collect,
process, store, present, and communicate vehicle maintenance data. The table below
shows VMF expenses, including commercial vendors’ expenses, for FY 2007.


                 Table 1. Maintenance Expenditures for FY 2007 by Area
                                         VMF and Commercial Expenditures
                                       Commercial          VMF
                  Postal Service     Vendor Expenses    Expenses in    Total Expenses
                 Area of Operation      in FY 2007        FY 2007        in FY 2007
                 Southeast                $13,867,484   $52,648,111      $66,515,595
                 Great Lakes               15,152,866    46,536,525       61,689,391
                 Eastern                   12,213,149    45,085,152       57,298,301
                 Western                   10,382,055    45,808,493       56,190,548
                 Pacific                    9,105,547    42,819,217       51,924,764
                 Northeast                 10,821,346    37,860,317       48,681,663
                 New York Metro            12,433,942    36,814,803       49,248,745
                 Southwest                  7,194,386    36,503,347       43,697,733
                 Capital Metro              7,643,667    32,808,458       40,452,125
                 Total                    $98,814,442   $376,884,423     $475,698,865
               Source: Postal Service Category Management Center




                                                  6
Vehicle Maintenance Facilities – Scheduled                                                 DR-AR-08-011
 Maintenance Service in the New York Metro Area



OBJECTIVES, SCOPE AND METHODOLOGY

The objectives of this audit were to assess whether the New York Metro Area
accomplished all required scheduled maintenance and whether they integrated both
VMFs and local commercial resources for optimum efficiency.

To accomplish the objectives, we randomly selected and reviewed vehicle service files
from 10 of the 16 VMFs in the New York Metro Area. We documented the scheduled
maintenance and number of SPMs required and whether they were conducted in a
timely manner, and reviewed work order files to document whether SPMs performed
were considered actual SPMs, based on the time required for maintenance. We
reviewed the Web-Enabled Enterprise Information System (WebEIS) to analyze
vehicles in “maintenance in arrears” status, and compared the number of SPMs
completed to actual maintenance records.

We reviewed FY 2007 VMAS data for scheduled maintenance services for the selected
New York Metro Area district VMFs (see Appendix E). We identified the number of
Preventive Maintenance Inspections (PMI)3 to be performed at each auxiliary VMF, the
VPOs where the vehicles were located, and the VPO’s distance from the VMFs, and
documented the number of vehicle maintenance technicians assigned to each VMF.

We identified each VMF’s and LCV’s expenditures for scheduled maintenance. In
discussions with VMF managers and reviews of maintenance records, we documented
the number of SPMs and SPM inspections required for each location on a yearly basis.
Using the VMAS vehicle work order history, we analyzed the average time to perform
an SPM for the 10 VMF units in reviewed our sample.

We developed an optimization model that used the above operational data to establish
a baseline, standards, key characteristics, shuttle usage and cost. Using this data, we
established an optimum operating efficiency for each VMF. Based on the above
analyses, assumptions, and constraints, we estimated that the New York Metro Area
could increase overall VMF efficiency, and we projected the cost savings for the New
York Metro Area’s universe of 16 VMFs. Click here to go to Appendix D, “Calculation of
Cost Savings,” for the model and assumptions we used to compute monetary benefits.

We conducted this performance audit from November 2007 through September 2008 in
accordance with generally accepted government auditing standards and included tests
of internal controls that we considered necessary under the circumstances. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence to provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives. We relied on data from VMAS
and WebEIS. We did not audit these systems, but performed a limited review of data

3
 A PMI is that portion of required scheduled maintenance a vehicle must receive to determine if mechanical and
safety systems are functioning properly.


                                                        7
Vehicle Maintenance Facilities – Scheduled                            DR-AR-08-011
 Maintenance Service in the New York Metro Area


integrity to support our reliance on the data. We discussed our observations and
conclusions with management officials on August 14, 2008, and included their
comments where appropriate.

PRIOR AUDIT COVERAGE

The OIG has issued seven reports related to our objectives in the last several years.

                                   Report           Final Report     Monetary
         Report Title              Number               Date          Impact
  Vehicle Maintenance            DR-AR-08-        September 30,     $21,580,236
  Facilities – Scheduled         010              2008
  Maintenance Service in
  the Pacific Area
  Vehicle Maintenance            DR-AR-08-        September 29,     $28,224,843
  Facilities – Scheduled         009              2008
  Maintenance Service in
  the Great Lakes Area
  Vehicle Maintenance            DR-AR-08-        September 29,     $14,251,384
  Facilities – Scheduled         008              2008
  Maintenance Service in
  the Western Area
  Vehicle Maintenance            DR-AR-08-        September 16,     $27,620,773
  Facilities – Scheduled         007              2008
  Maintenance Service in
  the Southeast Area
  Vehicle Maintenance            DR-AR-08-        August 14, 2008   $34,522,159
  Facilities – Scheduled         006
  Maintenance Service in
  the Southwest Area
  Maintenance and                DR-MA-07-        September 21,     $1,571,517
  Repair Payments to             005              2007
  Commercial Vendors
  Using Postal Service
  Form 8230,
  Authorization for
  Payment
  Management of                  DR-AR-06-        June 14, 2006     $22,796,487
  Delivery Vehicle               005
  Utilization

The previous 2008 audits, like this one of the New York Metro Area, are part of a series
of audits on this topic. Like these audits, the New York Metro Area did not complete
SPMs on all vehicles, and did not always integrate both VMF and LCV resources for


                                                  8
Vehicle Maintenance Facilities – Scheduled                            DR-AR-08-011
 Maintenance Service in the New York Metro Area


optimum efficiency. Management agreed with our findings, recommendations, and in
principle with the monetary impact.

The 2007 audit concluded that using the Postal Service (PS) Form 8230, Authorization
for Payment, process to pay commercial vendors for maintenance and repair services
was not cost-effective and did not include controls to reconcile payments and ensure
repair costs were reasonable. Management agreed with our findings,
recommendations, and monetary impact.

The 2006 audit concluded the Postal Service officials made significant strides in
reducing costs associated with delivery vehicle expenditures over the previous 3 years.
However, delivery management officials could further improve the use of vehicles that
support delivery operations. Management agreed with our findings, recommendations,
and monetary impact.




                                                  9
Vehicle Maintenance Facilities – Scheduled                                                  DR-AR-08-011
 Maintenance Service in the New York Metro Area


              APPENDIX B: SCHEDULED MAINTENANCE PERFORMANCE

The New York Metro Area completed 95 percent of their required SPMs during
FY 2007. Four VMF units completed all of their required SPMs. The other five VMF
units completed between 92 and 97 percent of their required SPMs, and one VMF unit
completed only 74 percent of the required SPMs. (See Table 2.)

               Table 2. Scheduled Preventive Maintenance Performed in FY 2007
                                           Required                          Percentage
                        VMF Location      in FY 2007     Performed           Performed
                        Hackensack              1,462         1,462                 100
                        Hicksville              4,809         4,407                  92
                        Manhattan               2,698         2,587                  96
                        Newark                  4,460         3,278                  74
                        Paterson                2,527         2,444                  97
                        Queens                  2,610         2,524                  97
                        Staten Island             847           784                  93
                        Trenton                 1,384         1,384                 100
                        Westchester             2,961         2,961                 100
                        Western Nassau          1,995         1,995                 100
                        Total/Average          25,753        23,826                  95
                       Source: VMAS and OIG optimization model

Reporting and Tracking Maintenance Activities. Management did not track and monitor
missing or past due SPMs. VPOs had not provided documentation to verify that
vehicles had been serviced by the local vendors as required. Further, even though we
determined our sample VMFs performed the majority of their SPMs, the process of
verifying scheduled maintenance performed proved difficult.4 One VMF included in our
sample was unable to substantiate whether more scheduled maintenances were
performed than recorded during FY 2007. This was in part because of multiple vehicle
transfers, and the way SPMs are tracked for VMFs nationwide. Specifically, the
maintenance process tracks the status of vehicles in arrears5 rather than number of
SPMs performed. Vehicles in arrears is an indication of vehicles with incomplete
scheduled maintenance, however, any adjustment to the SPM schedule has the impact
of removing all vehicles in arrears.

Without completing all required scheduled maintenance and repairs, some of the Postal
Service vehicles are vulnerable to breakdowns, which may create mail delays and
service problems. Further, the number of vehicle accidents could increase, which would
raise costs and potentially affect the well-being of employees and the public. Since the
Postal Service does not plan to begin replacing its current fleet of long life vehicles
(vehicles that are more than 20 years old) until 2018, we believe it is critical that these
vehicles receive the required maintenance.


4
  The issue of more easily reporting and tracking scheduled maintenances requires action by Postal Service
Headquarters and will be addressed in a national capping report on scheduled maintenance.
5
  The “vehicles in arrears” status is a performance measure for VMFs.


                                                        10
Vehicle Maintenance Facilities – Scheduled                                                   DR-AR-08-011
 Maintenance Service in the New York Metro Area


                        APPENDIX C: OPTIMUM USE OF RESOURCES

The New York Metro Area did not always optimize its resources to ensure that
maintenance and repair funds were expended in the most efficient and cost-effective
manner. Specifically, maintenance officials sometimes used LCVs for vehicle
maintenance and repairs when using VMF resources would have been more efficient
and economical. Likewise, VMF resources were sometimes used when LCVs would
have been more efficient and economical. Additionally, VMF officials used maintenance
employees to shuttle vehicles between facilities for maintenance and repairs when more
economical means existed.

Several factors contributed to these conditions.

    o Optimum Use of VMF and Local Commercial Resources. The vehicle
      maintenance plan did not consider an optimum combination of both VMF and
      local commercial resources.6 Generally, it is more cost-effective7 for the VMF to
      perform SPMs on vehicles stationed within 50 miles of the VPO. However, a
      local commercial vendor should perform SPMs on vehicles when the VPO is
      more than 50 miles from the nearest VMF. We determined that 5,011 SPMs
      should have been performed at the other site - either the VMF or the commercial
      facility. (See Table 3.)

                    Table 3. VMF and Local Commercial Vendor Resources
                                                                     SPMs Performed          Total SPMs That
                            FY 2007 SPMs                              Inefficiently at       Could Have Been
                            Performed by                               Opposite Site          More Optimally
                                                                                              Performed by
                                      Local        Total SPMs                  Local          Either VMF or
     VMF Location         VMF        Vendors       Performed         VMF      Vendors         Local Vendors
    Hackensack             1,388            74               1,462     462            0                   462
    Hicksville             1,604         2,803               4,407   1,025          300                 1,325
    Manhattan              2,587               0             2,587      80               0                   80
    Newark                 1,332         1,946               3,287    411           235                     646
    Paterson                 674         1,770               2,444      79           26                     105
    Queens                 1,846           678               2,524   1,069               3              1,072
    Staten Island            622           162                784     103                8                  111
    Trenton                1,384               0             1384       80               0                   80
    Westchester            1,186         1,775               2,961    498           147                     645
    Western Nassau         1,299           696               1,995    397            88                     485
    Total                 13,922         9,904              23,826   4,204          807                 5,011
    Source: VMAS data and OIG optimization model


6
  The VMAS does not track the number of SPMs accomplished. The OIG’s efficiency and optimization model
estimated the number completed by analyzing all work orders assigned to xxxx xx (scheduled maintenance), and with
some adjustment, considered all work of at least 2 hours as an SPM. We confirmed the number of SPMs required
and completed with VMF managers.
7
  Cost-effectiveness is based on the overhead costs to transport vehicles between the VMF and the VPO using a
vehicle maintenance technician or other VMF personnel.


                                                       11
              Vehicle Maintenance Facilities – Scheduled                                                       DR-AR-08-011
               Maintenance Service in the New York Metro Area


                  o Vehicle Shuttling. In most cases, we found that the Postal Service’s national
                    vehicle shuttle agreement or local commercial shuttling services were more cost-
                    effective than using VMF maintenance technicians. The New York Metro Area
                    used more than 11,785 workhours for vehicle maintenance technicians to shuttle
                    vehicles rather than perform maintenance. The shuttle hours related to SPM
                    were equivalent to more than six vehicle maintenance technician positions at a
                    cost of $507,239.8 (See Table 4.)

                           Table 4. Vehicle Maintenance Technician Hours Used for Shuttling


                      Number of         Estimated                          Percentage         Shuttle
                       Vehicle          Scheduled           Total           of Direct       Hours Used         Equivalent      Cost of Shuttle
                     Maintenance       Maintenance         Shuttle        Maintenance           for           Maintenance      Hours Used by
                     Technicians          Hours          Hours Used       Hours Used         Scheduled        Technician        Maintenance
  VMF Location        Assigned          Available        in FY 2007       for Shuttling     Maintenance        Positions        Technicians
 Hackensack                     7             9,822               472                 5            381.5               .22         $16,419.76
 Hicksville                      35            49,112            3,287                  7         1,600.5                .91          68,885.52
 Manhattan                       43            60,394             30.5                 .1                0                 0                 0.00
 Newark                          21            36,834          3,458.2                  9           854.4                .49          36,773.38
 Paterson                        10            14,032          1,625.8                12          1,313.9                .75          56,550.26
 Queens                          36            50,515           12,181                24          5,905.5                3.4        254,172.72
 Staten Island                    7             9,822               6.0                .1              6.0                 0               258.24
 Trenton                         16            22,451             42.4                 .2                0                 0                 0.00
 Westchester                     22            30,870          1,668.0                  5         1,191.8                .68          51,295.07
 Western Nassau                  14            19,645            587.9                  3           531.7                .30          22,884.37
 Total/Averages                 211           303,497         23,358.8                  8        11,785.3                  6       $507,239.32
Source: VMAS and OIG optimization model

                  o Area Oversight. The Postal Service’s organizational structure9 was not
                    conducive to effective management of vehicle maintenance. For example, the
                    Area Vehicle Maintenance Program Analysts (VMPA) could be more effective
                    and supportive if they attended delivery management meetings to have an
                    influence in filling VMF vacancies. VMPAs are responsible for working directly
                    with VMF officials to manage the vehicle maintenance program. However, each
                    VMPA is aligned under the Area Manager of Maintenance Operations, who is
                    responsible for the area’s mail processing plants, but has no direct line of
                    authority to district vehicle maintenance functions or individual VMF operations.




              8
                This estimate of equivalent technician positions applies only to the hours used for shuttling. It does not relate to any
              actual reductions discussed in this report.
              9
                The organizational structure issue will be addressed in a national capping report to Postal Service Headquarters.


                                                                          12
Vehicle Maintenance Facilities – Scheduled                               DR-AR-08-011
 Maintenance Service in the New York Metro Area


We found the New York Metro Area VMF managers and VMPAs to be proactive in
managing vehicle maintenance and receptive to the intent of the audit and
recommendations. Management officials did express concern that:

   o VMFs may not always find cost-effective shuttle alternatives. They also raised
     the possibility of potential union concerns with using contractors instead of VMF
     personnel.

   o The quality of maintenance performed by LCVs is often not at the same level of
     the VMFs, and they do not have staff and time to monitor LCV work.

   o The new policies restricting the ability to fill existing vacancies caused by attrition
     and a reduction or elimination of overtime could compromise the VMFs’ ability to
     capture cost savings.

   o The New York Metro Area faces unique challenges due to the large and diverse
     geographical area they cover.

The OIG acknowledges the issues management raised and the challenges faced by the
Postal Service that affect VMF operations. Notwithstanding these concerns and
challenges, in our opinion, opportunities exist to become more efficient and potentially
save money. Specifically, the New York Metro Area could lower overall VMF operating
costs by an average of $2.5 million annually. These efficiencies, when projected for the
16 VMFs in the New York Metro Area, could save an estimated $25,287,093 over a 10-
year period. (See Appendix D.)




                                                  13
Vehicle Maintenance Facilities – Scheduled Maintenance                                   DR-AR-08-011
 Service in the New York Metro Area




                   APPENDIX D: OIG CALCULATION OF COST SAVINGS

The OIG identified $25,287,093 in funds put to better use over the next 10 years for the
New York Metro Area’s 16 VMFs.10

                                       Savings in Dollars
                                               Average     Estimated
                                               Annual     Savings Over
                          VMF Location         Savings      10 Years
                        Hackensack                $31,396      $313,958
                        Hicksville                411,643     4,116,430
                        Manhattan                 259,593     2,595,933
                        Newark                     27,684       276,842
                        Paterson                    1,649        16,492
                        Queens                    389,130     3,891,300
                        Staten Island              20,950       209,497
                        Trenton                     3,476        34,764
                        Westchester               273,736     2,737,360
                        Western Nassau            161,186     1,611,857
                        Totals                 $1,580,443   $15,804,433
                        Projected Potential Savings Over
                        16 VMFs in New York Metro Area      $25,287,093
                       Source: OIG optimization model

We calculated the savings based on the following methodology and assumptions.

     •   Each VMF has a list of VPOs for which it is responsible for vehicle maintenance.
         Each VPO has a number of Postal Service vehicles that require regular SPM.
         The number of SPMs that a vehicle requires is determined at the beginning of the
         year based on the demands that the assigned route places on the vehicle. All
         SPMs for a given year must be performed on each vehicle; however, the VMF
         may delegate some of this workload to commercial vendors that are near the
         VPOs. We refer to this contract labor as LCVs.

     •   The purpose of this audit was to determine the optimal use of the SPMs to be
         performed by the VMFs and LCVs. We took into consideration the mechanic
         labor costs and all relevant shuttling costs. As with the SPMs, VMFs may
         contract out shuttling. The Postal Service has a national vehicle shuttle
         agreement; the OIG used that rate in the analysis. However, VMFs can use a
         less expensive local shuttle contractor if one can be identified.
10
  At a 95 percent confidence level, the OIG estimates the 10-year savings amount to range between $13.8 and
$36.7 million. We used the mid point estimate of $25.28 million in our statistical projection.



                                                      14
                                            Restricted Information
Vehicle Maintenance Facilities – Scheduled Maintenance                                    DR-AR-08-011
 Service in the New York Metro Area




     •   We developed the optimization model to find a least-cost solution based on
         performing all required SPMs. We used the VMFs’ FY 2007 operational data.
         Any SPMs not currently performed by VMFs were considered to be completed by
         LCVs.11 We restricted the scope of this audit to maintenance technicians’ time
         spent performing scheduled maintenance and shuttling activities. This analysis
         draws no conclusions regarding the time dedicated to other activities or how
         maintenance technicians used the remainder of their time.

     •   We optimized the VMFs’ scheduled maintenance and shuttling time for each of
         the next 10 years, assuming that the Postal Service would reduce the labor
         contingent by 5.1 percent per year, the historical New York Metro Area attrition
         rate.12 This optimization gives the least-cost solution and specifies how the
         SPMs at each VPO should be distributed between the VMFs and the LCVs. The
         model shows which shuttling jobs should be done by both the VMFs by
         contractors. The model analyzes all costs and hours (for SPMs at VMFs, SPMs
         at LCVs, VMF shuttling, and contract shuttling). The model also shows the total
         SPMs currently performed by the VMF and local vendors to the total amount that
         could be more optimally performed by VMFs or LCVs.

     •   In these optimizations, we assumed that each VMF would operate at a standard
         efficiency. We used the sampled 10 VMFs’ average time per SPM as a standard
         for the time it takes to complete an SPM in that area. If a particular VMF
         performed better than this standard, we assumed that the VMF maintained its
         current efficiency.

     •   The VMAS does not track the number of SPMs accomplished for each vehicle.
         The OIG’s efficiency and optimization model estimated the number of SPMs
         completed by analyzing all work orders assigned to code 22 (scheduled
         maintenance), and with adjustments (i.e., new vehicles and commercial repairs)
         considered all work lasting at least 2 hours13 as an SPM. We explained the
         process to the VMF manager and then confirmed/adjusted the number of SPMs
         required and completed.




11
   We obtained the current number of SPMs performed by VMFs and LCVs from VMAS databases located at the
VMFs and transmitted to the mainframe computer at San Mateo Information Technology and Accounting Service
Center. Because a VMF may not perform all its required SPMs, we assumed LCVs would perform the remaining
SPMs. In addition, in some cases, a VMF performed more SPMs than required at a VPO. We credited the VMFs
with these additional SPMs and determined a comparable solution by reassigning these SPMs to the closest location
with a shortfall. We accomplished this in part by assuming that the baseline case kept the scheduled maintenance
hours and shuttling hours constant at current levels.
12
   The historical attrition rate for New York Metro Area maintenance technicians was determined by averaging the
past 7 years (2001 - 2007) of data obtained from the WebEIS.
13
   We used 2 hours because of the Postal Service’s requirement for a “Type A and Type B” maintenance inspection
prior to any repair work. These inspections require between 1.5 and 2.5 hours.


                                                       15
Vehicle Maintenance Facilities – Scheduled Maintenance                                   DR-AR-08-011
 Service in the New York Metro Area




       •   We identified cost savings if the VMF was not efficiently using its shuttling time.
           We compared the VMF's total shuttling time to the aggregate time that should be
           needed to perform all of the VMF’s shuttling, assuming that two vehicles were
           transported on each trip. The cost of any excess time was time that could have
           been saved, although the actual amount of time that could be saved was likely to
           be higher because the VMFs probably did not perform all of their own shuttling.

       •   For our model, we reviewed the minimum and maximum overtime hours per
           week from what the VMFs used during the first 6 months of FY 2008 determined
           from the Enterprise Data Warehouse system. The number of hours of straight
           time worked for each mechanic per year is 1,754.14

       •   Based on the above analyses and projections, we estimated that the New York
           Metro Area could reduce costs by using local commercial resources for shuttling
           and for SPMs when appropriate. When projected over the New York Metro
           Area’s universe of 16 VMFs, we estimate a reduction of costs of approximately
           $2.5 million annually, or more than $25 million over a 10-year period. These
           savings include any reductions of vehicle maintenance technician positions
           through attrition over time.




14
     Source: Finance Memorandum dated March 6, 2006, “Workhour Rates for Fiscal Years 2005 - 2007.”


                                                       16
Vehicle Maintenance Facilities – Scheduled Maintenance                    DR-AR-08-011
 Service in the New York Metro Area


                         APPENDIX E: SELECTED DISTRICTS AND
                           VEHICLE MAINTENANCE FACILITIES

                                 District                     VMF
                        Northern New Jersey              Hackensack

                        Long Island                      Hicksville

                        New York                         Manhattan

                        Northern New Jersey              Newark

                        Northern New Jersey              Paterson

                        Triboro                          Queens

                        Triboro                          Staten Island

                        Central New Jersey               Trenton

                        Westchester                      Westchester

                        Long Island                      Western Nassau




                                                   17
Vehicle Maintenance Facilities – Scheduled Maintenance                                                                       DR-AR-08-011
 Service in the New York Metro Area

                                                                                                                                 15
                         APPENDIX F: SCHEDULED MAINTENANCE PROCESS

                                                                             Start



                                               VMF prepares annual vehicle
                                                 scheduled preventative                Vehicle breaks down at
                                                 maintenance plan for all            assigned vehicle post office
                                                    assigned vehicles.                         (VPO).




                                                                                                       Is vehicle due for
                                                                                                         maintenance?
                                                              VMF establishes date
                                                               for each assigned         Yes
                                                               vehicle to receive                              No
                                                                   scheduled
                                                                  preventative
                                                              maintenance (SPM).                      VPO obtains cost
                                                                                                      estimate for repair
                                                                                                      service from local
                                                                                                     commercial vendor.


        Does VMF have available resources?




                                No
                  Yes                                                                     Is work less than $250?



     VMF performs SPM.          Local vendor performs
                                        SPM.
                                                                                               No               Yes



                                                                         VPO gets approval to have
                                                                         work accomplished at local                 VPO obtains service from
                                         End                            commercial vendor or sends                  Local commercial vendor.
            End
                                                                         vehicle to VMF for repairs.




                                                                                           Vehicle is repaired and returned
                                                                                                      to service.




                                                                                                         End




15
     Source: Postal Service Handbook PO-701, Fleet Management, March 1991.


                                                                         18
Vehicle Maintenance Facilities – Scheduled Maintenance     DR-AR-08-011
 Service in the New York Metro Area


                       APPENDIX G: MANAGEMENT’S COMMENTS




                                                   19
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-011
 Service in the New York Metro Area




                                                   20
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-011
 Service in the New York Metro Area




                                                   21
Vehicle Maintenance Facilities – Scheduled Maintenance   DR-AR-08-011
 Service in the New York Metro Area




                                                   22
